No. 20-8462
IN THE

Supreme Court of the United States
RODERICK NAPOLEON HARRIS,
Petitioner,
v.
STATE OF TEXAS,
Respondent.
On Petition for a Writ of Certiorari
to the Court of Criminal Appeals of Texas

PROOF OF SERVICE OF BRIEF IN OPPOSITION

I am a member of the Bar of this Court, and I hereby certify that on September
29, 2021, a copy of Respondent’s Brief in Opposition to Petition for a Writ of Certiorari
was sent by mail and electronic mail to Petitioner’s counsel listed below. All parties
required to be served have been served.
Gwendolyn C. Payton
John R. Neeleman
Kilpatrick Townsend & Stockton LLP
1420 Fifth Avenue, Suite 3700
Seattle, WA 98101
gpayton@kilpatricktownsend.com
jneeleman@kilpatricktownsend.com
Adam H. Charnes
Kilpatrick Townsend & Stockton LLP
2001 Ross Avenue, Suite 4400
Dallas, TX 75201
acharnes@kilpatricktownsend.com

Benjamin Wolff
Office of Capital and Forensic Writs
1700 N. Congress Avenue, Suite 460
Austin, TX 78701
Benjamin.Wolff@ocfw.texas.gov
/s/ Michele “Shelly” O’Brien Yeatts
MICHELE “SHELLY” O’BRIEN YEATTS
Assistant District Attorney
Frank Crowley Courts Bldg.
133 N. Riverfront Blvd., LB-19
Dallas, Texas 75207
(214) 653-3625
syeatts@dallascounty.org
Counsel for Respondent

2

